Implementation Review - Review of PBS’s
    Appraisal Process for Rent Pricing
Audit Report Number A060197/P/R/R08002
             January 2, 2008

      Assignment Number A100096
            March 31, 2010
Date:                    March 31, 2010

Reply to                 R. Nicholas Goco
Attn of:                 Deputy Assistant Inspector General
                         For Real Property Audits (JA-R)

Subject:                 Implementation Review - Review of PBS’s
                         Appraisal Process for Rent Pricing
                         Audit Report Number A060197/P/R/R08002
                         January 2, 2008
                         Assignment Number A100096

To:                      Robert A. Peck
                         Commissioner, Public Buildings Service (P)


The Office of Inspector General (OIG) has completed an implementation review of the
management actions taken on the three recommendations in the subject audit report. The review
found that the Public Buildings Service (PBS) addressed all of the audit recommendations in the
corrective action plan, dated February 29, 2008, (see Appendix A).

Background and Audit Report Findings

Rent charged in PBS’s federally owned space is required by law to approximate commercial
market rates. The major components of rent in federally owned buildings are the shell rent,
operating costs, and parking, which are established by a market-based appraisal using
comparable properties. Our initial review’s objective was to address the following issues raised
by a Director of the Administrative Office of the United States Courts (AOUSC) in a June 2006
letter to the GSA Inspector General: 1) PBS employees are adjusting independent appraisal rates
in a predominately upward direction, 2) the Linking Budget to Performance program may have
created an incentive for PBS employees to alter rental rates, 3) PBS has been overcharging the
courts due to misclassified tenant floor cut space and erroneous billing, and 4) tenant access to
appraisal documents has been limited.

The primary allegation in the AOUSC’s June 2006 letter suggested that PBS personnel were
adjusting contract appraisals for the purpose of increasing PBS income as well as for personal
gain. Although the audit work did not support the AOUSC’s assertions, it did identify appraisal
adjustments and control issues. According to the written rationale included in most of the
appraisal files, the majority of the adjustments (which were permitted by PBS policy at the time)
were to correct deficiencies the Regional Appraisers identified in the contractor’s appraisal. The
audit also identified several control issues related to appraisal adjustments. For example, the
appraisal files rarely contained supplementary documents to support the regional appraiser’s
adjustments and there was little documentation of regional oversight over the appraisal reviews.
Our review also found instances in which PBS appraisal policy was not followed, mainly as a
result of errors by the contract appraisers that were not identified by PBS.

Additionally, we concluded the Linking Budget to Performance program did not provide an
inherent incentive to adjust appraisals for personal benefit. We also found no consistency among
the Regional Appraisers’ performance plan critical elements, and found two critical elements
(out of 50) with language that could be interpreted as encouraging profitability in PBS buildings.
The audit also disclosed that PBS handled requests for appraisal information in accordance with
then-current policy.

Accordingly, we made the following recommendations: 1) Establish specific documentation
requirements for appraisal files to substantiate regional appraiser’s decisions and actions
regarding an appraisal file (e.g. disregarded appraisals, adjustments made due to changes in
space measurements, and customer appraisal requests). Requirements should provide details on
what should be documented and how the documentation should be executed; 2) Reinforce
appraisal instructions and guidance with PBS regional appraisers to ensure the appraisal review
process uncovers appraisal policy violations; and, 3) Develop consistent critical performance
elements for regional appraisers that will ensure performance expectations do not conflict (in fact
and appearance) with the professional duties of the regional appraiser.

In February 2008, management issued an action plan detailing the steps they proposed to take to
implement our recommendations.

Objective, Scope and Methodology

The objective of this implementation review was to determine if management had fully
implemented the steps in their action plan. To accomplish this objective we examined the
documentation submitted by PBS as supporting the accomplishment of the action plan steps.
Additionally, we performed limited testing of the implementation of the guidance contained in
these supporting documents. This testing included an analysis of 10 judgmentally selected
contractor appraisals and related documents contained in PBS’s Appraisal Data System (ADS).
ADS provides PBS with a web-based nationally integrated database application that serves as a
repository for Fair Annual Rent Appraisal and rent data. We also held meetings, and
corresponded with, the National Office Lead Appraiser and three Regional Appraisers to obtain
clarification on specific issues.

Results

We concluded that management has fully implemented the actions listed on the corrective action
plan and provided the necessary supporting documentation for each action step to the agency’s
Internal Control and Audit Division.




                                                2
Additional Observations

While the corrective actions taken by PBS addressed the issues raised in our initial report, our
testing of the implementation actions suggests certain areas where clarifying the language in the
program guidance might enhance controls in the appraisal program.

The appraisal file guidance requires “...appraisals not used for rate setting purposes that are kept
in the file, but the file must have a memo explaining (or justifying) in detail the reasons for not
using that appraisal. However, appraisals (indeed any documentation not used for determining
the FAR rate for a fiscal year) may be removed from the file, provided it is not used for rate
setting purposes or uploaded in ADS.” It is not clear from this language whether unused
appraisals should, or should not, be maintained in the file. The National Office Lead Appraiser
maintains that unused appraisals (allowed under the guidance for legitimate purposes) still need
to be included in the appraisal files since they are part of the rate setting process. We believe it
might beneficial for PBS to clarify its guidance in this area to ensure all contract appraisals
ordered by the Regional Appraisers are included in the appraisal files, along with the rationale
for excluding the appraisal from the rate setting process.

The appraisal file guidance also requires R/U (Rentable/Usable) modification forms to reflect
changes in the space measurements affecting the ratio of rentable to usable square footage in a
building, since these changes impact a tenant’s rental rate. The guidance does not require
supplemental documentation from the Spatial Data Management (SDM) group to substantiate the
re-measurement. We believe having the supplemental information would be useful. While this
information is captured in STAR, PBS’s inventory database, or in separate regional files,
enclosing an independent SDM report with the applicable R/U memo would allow the reader of
the appraisal file to easily follow the building changes that impact the building’s rental rate.

Finally, the appraisal file guidance does not address documentation requirements for customer’s
requests for copies of the appraisals that support the tenant’s rental rates. The Regional
Appraisers do not routinely provide customers appraisal documents, but do so only upon request.
The Regional Appraisers informed us they maintain records related to the few requests they
receive, although one Regional Appraiser does not include them in the appraisal file due to
limited file space. Maintenance of consistent documentation would verify that PBS is being
responsive to its tenants.

Thank you and your staff for the courtesies extended during this review. If you require any
additional information on this implementation review, please contact me on 202-219-0088.



Susan P. Hall
Audit Manager
Real Property Audit Office (JA-R)




                                                 3
Implementation Review - Review of PBS’s Appraisal
             Process for Rent Pricing
    Audit Report Number A060197/P/R/R08002
          Assignment Number A100096
                   Appendix A




                      A-1
Implementation Review - Review of PBS’s Appraisal
             Process for Rent Pricing
    Audit Report Number A060197/P/R/R08002
          Assignment Number A100096
                   Appendix A




                      A-2
Implementation Review - Review of PBS’s Appraisal
             Process for Rent Pricing
    Audit Report Number A060197/P/R/R08002
          Assignment Number A100096
                   Appendix A




                      A-3
Implementation Review - Review of PBS’s Appraisal
             Process for Rent Pricing
    Audit Report Number A060197/P/R/R08002
          Assignment Number A100096
                   Appendix A




                      A-4
                            Implementation Review - Review of PBS’s Appraisal
                                         Process for Rent Pricing
                                Audit Report Number A060197/P/R/R08002
                                      Assignment Number A100096
                                               Appendix B

                                                  Report Distribution

Commissioner, Public Buildings Service (P)................................................................. 1
Regional Administrator, Northeast & Caribbean Region (2A) ..................................... 1
Regional Administrator, Southeast Sunbelt Region (4A) .............................................. 1
Regional Administrator, Great Lakes Region (5A) ....................................................... 1
Regional Administrator, Northwest/Arctic Region (10A) ............................................. 1
Regional Inspector General for Auditing (JA-2, JA-4, JA-5, JA-9) .............................. 4
Regional Inspector General for Investigations (JI-2, JI-4, JI-5, JI-9) ............................ 4
Office of the Chief Financial Officer (B) ..................................................................... 1
Assistant Inspector General for Auditing (JA, JAO) ..................................................... 2
Assistant Inspector General for Investigations (JI) ........................................................ 1
Director, Internal Control & Audit Division (BEI) ....................................................... 1




                                                             B-1
